App. No. ___
________________________________

In the Supreme Court of the United States
________________________________
NELIDA MARIBEL DIAZ JUAREZ AND NALBERTA BRAVO DIAZ,
Petitioners,
v.
COMMONWEALTH OF KENTUCKY, CABINET OF HEALTH AND FAMILY SERVICES
Respondents.
________________________________
APPLICATION TO EXTEND TIME TO FILE PETITION FOR A WRIT OF
CERTIORARI FROM SEPTEMBER 11, 2019 TO OCTOBER 11, 2019
________________________________
To the Honorable Justice Sotomayor:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30,
petitioners Nelida Maribel Diaz Juarez and Nalberta Bravo Diaz respectfully request
that the time to file a petition for a writ of certiorari in this case be extended for 30
days to and including October 11, 2019. The Supreme Court of Kentucky rendered its
opinion on June 13, 2019. See App. A, infra. Absent an extension of time, the petition
would be due on September 11, 2019. Petitioners are filing this application more than
ten days before that date. See Sup. Ct. R. 13.5. This Court has jurisdiction under 28
U.S.C. § 1257 to review this case.
BACKGROUND
This case presents an important question about federal immigration law that
has divided state courts of last resort. Under federal law, an immigrant under the
age of 21 can obtain special immigrant status if she is:

(J) an immigrant who is present in the United States—
(i) who has been declared dependent on a juvenile court located in the United
States or whom such a court has legally committed to, or placed under the
custody of, an agency or department of a State, or an individual or entity
appointed by a State or juvenile court located in the United States, and whose
reunification with 1 or both of the immigrant’s parents is not viable due to
abuse, neglect, abandonment, or a similar basis found under State law;
(ii) for whom it has been determined in administrative or judicial proceedings
that it would not be in the alien’s best interest to be returned to the alien’s or
parent’s previous country of nationality or country of last habitual residence;
and
(iii) in whose case the Secretary of Homeland Security consents to the grant of
special immigrant juvenile status, except that—
(I) no juvenile court has jurisdiction to determine the custody status or
placement of an alien in the custody of the Secretary of Health and
Human Services unless the Secretary of Health and Human Services
specifically consents to such jurisdiction; and
(II) no natural parent or prior adoptive parent of any alien provided
special immigrant status under this subparagraph shall thereafter, by
virtue of such parentage, be accorded any right, privilege, or status
under this chapter.
8 U.S.C. § 1101(a)(27)(J); see also 8 C.F.R. § 204.11 (regulation implementing these
requirements). Special immigrant juvenile status, also known as “SIJS,” is a path to
permanent legal residency.
This provision of federal law is unusual in that SIJS is granted by the federal
government, but the required factual findings must first be made by state courts or
administrative agencies.
In this case, petitioner Nalberta Bravo Diaz filed a dependency petition in
Kentucky Family Court on behalf of petitioner Nelida Maribel Diaz Juarez, who at

2

the time was under the age of eighteen.* In connection with the petition, Nalberta
and Nelida sought the required SIJS findings. The Family Court determined that it
lacked jurisdiction to make those findings, and the Court of Appeals reversed, holding
that Family Courts are required to make such findings upon request.
In a divided decision, the Supreme Court of Kentucky reversed that decision.
The court held that the federal statute does not require state courts to make SIJS
findings, App. A, at 8, but that family courts in Kentucky are permitted to make such
findings when they deem it to be in the best interests of a child, id. at 9-10. The court
noted that its decision is consistent with recent decisions from several other states.
Id. at 4-6. It acknowledged, however, that numerous other states require SIJS
factfinding, either by statute, or by judicial precedent. See id. at 10 & n.4-5. Applying
this rule, the court held that no SIJS findings were required in this case. See id. at
10.
Two justices dissented, explaining that “without the requisite SIJS findings by
a Kentucky court, undocumented immigrant children in Kentucky will be unable to
proceed with an application for SIJS and may possibly face deportation. It is not an
exaggeration to say that that child’s immigration status hangs in the balance.” App.
A, at 13 (Minton, C.J., dissenting) (quotation marks omitted). “To ensure compliance
with the judiciary’s duty to dispose of juvenile cases according to the child’s best

*

Although Nelida is now older than eighteen, she has recommitted to the
custody of the Kentucky Cabinet of Health and Family Services until the age of
twenty-one and remains under the jurisdiction of the Family Court.
3

interest and to ensure that Kentucky does not shirk its duty in cooperative
federalism,” the dissent would “require Kentucky’s courts always to engage in SIJS
factfinding when an undocumented immigrant child is before the court in an action
involving a custodial arrangement.” Id. at 17.
The Supreme Court of Kentucky rendered its opinion on June 13, 2019, and
gave it a “final date” of July 9, 2019. App. A, at 1.
REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a petition for a writ of certiorari should be extended for 30 days,
to October 11, for several reasons.
First, petitioners only recently retained undersigned counsel for the filing of a
petition for a writ of certiorari before this Court. Additional time is necessary for
counsel to review the record in the case as well as the decisions of other state courts
of last resort in order to prepare a clear and concise petition for the Court’s review.
Second, no prejudice would result from the extension. Whether the extension
is granted or not, the petition will be considered during this Term—and, if the petition
were granted, the case could be heard and decided during this Term. Moreover, this
Application is being filed out of an abundance of caution based on the belief that the
deadline is September 11, but it may already be later. As noted above, the Supreme
Court of Kentucky gave its decision a “final date” of July 9, 2019. It is not clear
whether the judgment was “entered” before that date. If the due date is already later,
then clearly no prejudice would result from an extension.

4

Third, the press of other matters makes the submission of the petition difficult
absent an extension. Petitioners’ counsel is currently responsible for numerous
pending matters in the courts of appeals and this Court. These include:


Oral argument in Shatsky v. Palestine Liberation Organization, No. 177168 (D.C. Cir.), on September 9, 2019;



A petition for a writ of certiorari due on September 27, 2019; and



A certiorari-stage amicus brief due by September 30, 2019.

Finally, the petition is likely to be granted. This case presents an important
question that affects tens of thousands of immigrants, and as the Supreme Court of
Kentucky acknowledged, the various states’ approaches to this federal legal issue
diverge in outcome-determinative ways.
CONCLUSION
For the foregoing reasons, the time to file a petition for a writ of certiorari
should be extended for 30 days to and including October 11, 2019.
Respectfully submitted,

_______________________________
Tejinder Singh
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com
Dated: August 30, 2019

5

